DOE/IG-0431




    INSPECTION                     SUMMARY REPORT ON
                                      INSPECTION OF
      REPORT                   ISSUES ASSOCIATED WITH THE
                                 DEPARTMENT OF ENERGY’S
                                     TRITIUM SOURCE
                                    SELECTION PROCESS




                                     NOVEMBER 1998




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                                      November 23, 1999

MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman /s/
                      Inspector General

SUBJECT:              INFORMATION: Summary Report on “Inspection of Issues
                      Associated With the Department of Energy’s Tritium Source
                      Selection Process”

BACKGROUND

The Office of Inspector General received a letter dated August 31, 1998 from Senator
Strom Thurmond concerning the selection of the tritium production source. The let-
ter stated that information had been received which suggested that certain senior level
Department officials may have engaged in a systematic effort to undermine the validity
of the Accelerator for the Production of Tritium (APT) option, and that the then Dep-
uty Secretary of Energy directed subordinates to fire an official in the Office of De-
fense Programs because this official had raised concerns about the cost evaluations of
the two tracks, the APT and the Commercial Light Water Reactor (CLWR) option.

The objective of this inspection was to address the following questions presented in
the   August 31, 1998, letter:

• Is there evidence that DOE principals and staff have worked to influence the out-
  come of the “Dual Track” process to advance one option over the other?

• Has an official in the Office of Defense Programs, or any other DOE employee,
  been threatened, pressured, censured, reprimanded, etc. while in the discharge of
  his official duties pertaining to this matter?

• Have threats, reprimands, or pressures created an environment which would limit
  the ability or desire of DOE employees to present balanced information about the
  tritium source selection process?

• Have key DOE employees, including a senior official from the Office of Chief Fi-
  nancial Officer and a senior official from the Office of Nonproliferation and Na-
  tional Security, been excluded from fully participating in the “Dual Track” proc-
  ess?
                             RESULTS OF INSPECTION

Our inspection found no persuasive evidence that there was a systematic effort to un-
dermine the validity of the APT option. Similarly, we did not find evidence that De-
partment principals or staff worked to improperly influence the outcome of the “Dual
Track” process to advance one option over the other.

We found that a senior official suggested to the Deputy Secretary that some form of
disciplinary action should be taken against an official in the Office of Defense Pro-
grams for unauthorized direction to Los Alamos National Laboratory to expand the
APT scope to include the study of the production of medical isotopes; and for the
APT team’s involvement in providing information to Congress that was not approved
by the Department. However, we found no evidence that the Deputy Secretary di-
rected subordinates to fire that senior official. Further, the senior official said he had
not been reprimanded, threatened, or intimidated.

We did not find evidence that an environment was created which would limit the abil-
ity or desire of Department employees to present balanced information about the trit-
ium source selection process. Senior Department officials consistently told us that
they were not aware of any attempts to muzzle, intimidate, or exclude personnel in or-
der to ensure that the CLWR project appeared to be the most acceptable and cost ef-
fective option.

Finally, we did not find evidence that key Department employees were excluded from
fully participating in the “Dual Track” process.

Based on our findings, the Office of Inspector General has no recommendations relat-
ing to the issues discussed in this report. We understand the U.S. General Accounting
Office is reviewing cost issues related to the tritium options. Therefore, our inspec-
tion did not address these matters.

Attachment

cc: Acting Deputy Secretary
    Under Secretary
    Assistant Secretary for Defense Programs
    Chief Financial Officer
    Director,
SUMMARY REPORT ON INSPECTION OF ISSUES ASSOCIATED WITH THE
DEPARTMENT OF ENERGY’S TRITIUM SOURCE SELECTION PROCESS


TABLE OF
CONTENTS
                    Overview


                    Introduction and Objective..................................................             1

                    Observations and Conclusions...........................................                  3

                    Issues Associated With the
                    Tritium Source Selection Process… … … … … … … … … ..                                     4

                    Details of Finding................................................................       4

                    Conclusion… … … … … … … … … … … … … … … … … ......… …                                    6

                    Scope.................................................................................   7

                    Methodology.......................................................................       7
Overview

INTRODUCTION AND   The Department of Energy (DOE) maintains the Nation’s
OBJECTIVE          nuclear weapons stockpile. In the early 1990’s, as part of
                   its continuing world leadership role in arms control, the
                   United States halted production of new nuclear warheads
                   and conducted its last nuclear explosive test. Thus ended
                   an era in which the U.S. modernized its nuclear weapon
                   stockpile by continually replacing aging systems with new
                   systems. With the decision to cease the production of new
                   nuclear warheads and end nuclear testing, the Nation
                   faced the challenge of maintaining its existing nuclear
                   weapon stockpile.

                   Tritium is an essential component in maintaining the
                   Nation’s nuclear weapons stockpile. However, tritium has
                   a half-life of 12.3 years. Because of the relatively short
                   time it takes for tritium to decay, tritium must be periodically
                   replaced. Over the past 40 years, the Department has built
                   and operated 14 nuclear reactors to produce tritium and
                   other nuclear materials for weapons purposes. Today,
                   none of these reactors are operational, and no tritium has
                   been produced since 1988. In order to maintain the current
                   nuclear weapons capabilities, the Department has been
                   tasked to ensure rapid access to a new production source
                   for tritium within the next decade.

                   On December 5, 1995, the Department approved a formal
                   Record of Decision for a “Dual Track” strategy to assure a
                   future tritium source. As a result, DOE is currently
                   investigating the two most promising tritium supply
                   alternatives. The Department has created the Office of
                   Commercial Light Water Reactor (CLWR) Production and
                   the Office of Accelerator Production within the Office of
                   Defense Programs to serve as both the experts on, and
                   advocates for, the two tracks. The CLWR track is exploring
                   two options: (1) the purchase of irradiation services from
                   an existing CLWR, and (2) the completion of a CLWR unit
                   at the Tennessee Valley Authority’s (TVA) Bellefonte
                   Nuclear Plant in Hollywood, Alabama, with emphasis on
                   the production of tritium while also producing electricity.
                   The Accelerator for the Production of Tritium (APT) track is
                   exploring the design, building, and testing of critical
                   components of an accelerator system for the production of
                   tritium, and the preparation of a design for the actual
                   accelerator facility. The Department’s Savannah River Site
    Page 1                   Summary Report on Inspection of Issues Associated
                             With the Department of Energy’s Tritium Source
                             Selection Process
         located near Aiken, South Carolina, was selected as
         the location for the APT, should one be built. A third
         technology, an existing DOE test reactor known as
         the Fast Flux Test Facility, is also being evaluated
         for its potential role in tritium production.

         As provided in the Fiscal Year 1998 National
         Defense Authorization Act, the Secretary of Energy
         is to make a final decision by December 31, 1998, on
         the technologies to be utilized for tritium production.

         The Office of Inspector General received a letter
         dated August 31, 1998 from Senator Strom
         Thurmond concerning the selection of the tritium
         production source. The letter stated that information
         had been received which suggested that certain
         senior level Department officials may have engaged
         in a systematic effort to undermine the validity of the
         Accelerator for the Production of Tritium (APT)
         option, and that the then Deputy Secretary of Energy
         directed subordinates to fire an official in the Office
         of Defense Programs because this official had raised
         concerns about the cost evaluations of the two
         tracks, the APT and the CLWR options. The letter
         also indicated that an official in the Office of the
         Chief Financial Officer (CFO) stated that cost
         estimates reported as “official” by the Deputy
         Secretary for the completion of the TVA Bellefonte
         reactor (part of the CLWR option) had not been
         “validated” by the Department. Further, there was a
         concern that an official in the Office of
         Nonproliferation and National Security was not given
         the opportunity to provide input on whether
         producing tritium in a CLWR posed “manageable”
         nonproliferation risks.

         The objective of this inspection was to address
         the following questions presented in the
         August 31, 1998, letter:

         • Is there evidence that DOE principals and staff
           have worked to influence the outcome of the


Page 2   Summary Report on Inspection of Issues Associated
         With the Department of Energy’s Tritium Source
         Selection Process
                      “Dual Track” process to advance one option over
                      the other?

                   • Has an official in the Office of Defense Programs,
                     or any other DOE employee, been threatened,
                     pressured, censured, reprimanded, etc. while in
                     the discharge of his official duties pertaining to
                     this matter?

                   • Have threats, reprimands, or pressures created
                     an environment which would limit the ability or
                     desire of DOE employees to present balanced
                     information about the tritium source selection
                     process?

                   • Have key DOE employees, including a senior
                     official from the Office of Chief Financial Officer
                     and a senior official from the Office of
                     Nonproliferation and National Security, been
Observations and
                     excluded from fully participating in the “Dual
Conclusions
                     Track” process?

                   Based on interviews of senior level Department and
                   contractor officials involved in the “Dual Track”
                   process and the review of pertinent documentation,




Page 3             Summary Report on Inspection of Issues Associated
                   With the Department of Energy’s Tritium Source
                   Selection Process
Issues Associated With the Tritium Source Selection

Details of Findings   we found no persuasive evidence that there was a
                      systematic effort to undermine the validity of the APT
                      option.

                      Based on interviews of current and former senior
                      level Department and contractor officials, we did not
                      find evidence that Department principals or staff
                      worked to improperly influence the outcome of the
                      “Dual Track” process to advance one option over the
                      other. An official in the Office of Defense Programs
                      (to be referred to hereafter as Defense Programs
                      Official “A“) stated that while he has not been
                      reprimanded and has not been threatened or
                      intimidated in the exercise of his official
                      responsibilities, there were a series of events that led
                      him to believe there may be a bias against the APT
                      option. However, we found no persuasive evidence
                      to support this belief.

                      We found that a senior official suggested to the
                      Deputy Secretary that some form of disciplinary
                      action should be taken against Defense Programs
                      Official “A” for unauthorized direction to Los Alamos
                      National Laboratory (LANL) to expand the APT
                      scope to include the study of the production of
                      medical isotopes; and for the APT team’s
                      involvement in providing information to Congress that
                      was not approved by the Department. However, we
                      found no evidence that the Deputy Secretary
                      directed subordinates to fire Defense Programs
                      Official “A“. A senior official in the Office of Defense
                      Programs (to be referred to hereafter as Senior
                      Defense Programs Official “B“) said that he told
                      Defense Programs Official “A” to rescind the
                      direction to LANL expanding the APT scope; and that
                      communication from the Department to Congress
                      should contain the Secretary’s signature. The Senior
                      Defense Programs Official “B” described his
                      discussion as a form of verbal disciplinary action,
                      however, Defense Programs Official “A” told us that
                      he had not been reprimanded, threatened, or
                      intimidated.


Page 4                                                   Details of Finding
         We did not find evidence that an environment was
         created which would limit the ability or desire of
         Department employees to present balanced
         information about the tritium source selection
         process. Senior Department officials consistently
         told us that they were not aware of any attempts to

         muzzle, intimidate, or exclude personnel in order to
         ensure that the CLWR project appeared to be the
         most acceptable and cost effective option. The
         Deputy Secretary stated that both the APT and
         CLWR programs were given an equal opportunity to
         present their programs to the Secretarial officers.
         She stated that she has worked hard to make sure
         there was a fair comparison concerning the tritium
         options, and that one option was not presented
         unfairly over the other. She stated that because
         there were no reprisals or censorship of any kind
         regarding anyone performing their official duties, she
         could not possibly have created an intimidating
         environment that could have interfered with an
         advocate presenting an option. Other current and
         former Senior Department officials confirmed the
         Deputy Secretary’s statement.

         In addition, Defense Programs Official “A” stated
         neither he nor anyone else that he was aware of,
         was threatened or intimidated regarding the tritium
         production source selection process. He stated that
         the criticism regarding the direction to LANL to
         expand the APT scope has stopped him from
         studying the medical isotope issue and from saying
         things publicly about the issue, but that he did not
         feel this has caused him to be less effective.

         Finally, we did not find evidence that key Department
         employees were excluded from fully participating in
         the “Dual Track” process. The senior CFO official
         stated that he has not been excluded from the tritium
         production source selection process, nor is he aware
         of anyone else that has been inappropriately
         excluded from the process. He stated that he was
         part of an informal group brought together by the


Page 5                                     Details of Finding
             former Secretary to review the various proposals
             presented by each program. He stated that no one
             in CFO was involved in conducting a validation or
             independent cost estimate for the APT or CLWR
             options. However, the senior CFO official also
             stated that the concerns that the cost estimates for
             the tritium production source alternatives were
             incomplete and unsubstantiated are not warranted.
             He also stated that each program has been working
             on its cost figures for quite a while, and the cost
             figures being used were the best estimates at that
             point in time.

             The senior official from the Office of Nonproliferation
             and National Security stated that she was intimately
             involved in the preparation of a July 1998 report to
             Congress titled, “INTERAGENCY REVIEW OF THE
             NONPROLIFERATION IMPLICATIONS OF
Conclusion
             ALTERNATIVE TRITIUM PRODUCTION
             TECHNOLOGIES UNDER CONSIDERATION BY
             THE DEPARTMENT OF ENERGY.” She stated that
             she concurred with the final report, and agreed with
             the conclusion that producing tritium in a Commercial
             Light Water Reactor involves “manageable”
             nonproliferation risks.

             Based on our findings, the Office of Inspector
             General has no recommendations relating to the
             issues discussed in this report. It should be noted
             that the Senate Armed Services Committee has
             requested the U. S. General Accounting Office
             (GAO) to review issues related to the selection of a
             new tritium production source. Specifically, GAO




Page 6                                         Details of Finding
Appendix


Scope         was asked to provide information on (1) what
              alternatives DOE is considering for tritium production
              and the criteria DOE plans to use to select among
              competing methods, (2) what cost estimates have
              been prepared for each of the alternatives, including
              what assumptions and parameters the estimates are
              based on, and (3) what independent reviews have
              been done on the cost estimates. We did not
              address the issues being reviewed by GAO.
              Based on the information provided in the August 31,
              1998, letter, we evaluated:

                 - Whether there was evidence that DOE
                   principals and staff have worked to influence
                   the outcome of the “Dual Track” process to
                   advance one option over the other.

                 - Whether an official in the Office of Defense
                   Programs, or any other DOE employee, has
                   been threatened, pressured, censured,
                   reprimanded, etc. while in the discharge of his
                   official duties pertaining to this matter.

                 - Whether threats, reprimands, or pressures
                   have created an environment which would
                   limit the ability or desire of DOE employees to
Methodology        present balanced information about the tritium
                   source selection process.

                 - Whether key DOE employees, specifically a
                   senior official in the Office of the Chief
                   Financial Officer and a senior official in the
                   Office of Nonproliferation and National
                   Security, have been excluded from fully
                   participating in the “Dual Track” process.

              To accomplish the inspection objectives, we
              interviewed 24 current and former senior level
              Department and contractor officials involved in the
              tritium source selection process.

              We also reviewed documentation relating to the
              tritium project, including: (1) the August 31, 1998,
              letter to the Office of Inspector General: (2) a

Page 7                                    Scope and Methodology
Appendix

           December 5, 1995, Record of Decision for a “Dual
           Track” strategy; (3) the July 1998 report to Congress
           titled, “INTERAGENCY REVIEW OF THE
           NONPROLIFERATION IMPLICATIONS OF
           ALTERNATIVE TRITIUM PRODUCTION
           TECHNOLOGIES UNDER CONSIDERATION BY
           THE DEPARTMENT OF ENERGY;” (4) the
           Department’s “FY 1999 CONGRESSIONAL
           BUDGET REQUEST, DEFENSE PROGRAMS” and
           other cost and budget information from the Tritium
           Project Office; (5) the “DEPARTMENT OF DEFENSE
           AUTHORIZATION ACT FOR FISCAL YEAR
           1998;” (6) H.R. 3616, (7) GAO Report titled
           “TENNESSEE VALLEY AUTHORITY - FINANCIAL
           PROBLEMS RAISE QUESTIONS ABOUT LONG-
           TERM VIABILITY;“ (8) “COMPARISON OF
           COSTS....” documents prepared by the APT team;
           and, (9) various documents provided by
           interviewees. This inspection was conducted
           between September and November 1998.

           This inspection was conducted in accordance with
           the “Quality Standards for Inspections” issued by the
           President’s Council on Integrity and Efficiency.




Page 8                                Scope and Methodology
                                      IG Report No._IG-0431____
                     CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the use-
fulness of its products. We wish to make our reports as responsive as possible
to our customers' requirements, and therefore ask that you consider sharing
your thoughts with us. On the back of this form, you may suggest improve-
ments to enhance the effectiveness of future reports. Please include answers
to the following questions if they are applicable to you:

       1.      What additional background information about the se-
               lection, scheduling, scope, or procedures of the audit or
               inspection would have been helpful to the reader in un-
               derstanding this report?

       2.      What additional information related to findings and rec-
               ommendations could have been included in this report
               to assist management in implementing corrective ac-
               tions?

       3.      What format, stylistic, or organizational changes might have
               made this report's overall message more clear to the reader?

       4.      What additional actions could the Office of Inspector General
               have taken on the issues discussed in this report which would
               have been helpful?

Please include your name and telephone number so that we may contact you
should we have any questions about your comments.
Name ____________________________ Date_____________________

Telephone _______________________ Organization_____________

When you have completed this form, you may telefax it to the Office of In-
spector General at (202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                              U.S. Department of Energy
                              Washington, D.C. 20585
                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the
Office of Inspector General, please contact Wilma Slaughter at (202)
586-1924.
The Office of Inspector General wants to make the distribution of its reports as cus-
tomer friendly and cost effective as possible. Therefore, this report will be available
      electronically through the Internet at the following alternative address:


     Department of Energy Human Resources and Administration Home Page
                          http://www.hr.doe.gov/ig

         Your comments would be appreciated and can be provided on the
                Customer Response Form attached to the report.

                        This report can be obtained from the
                            U.S. Department of Energy
                   Office of Scientific and Technical Information
                                    P.O. Box 62
                           Oak Ridge, Tennessee 37831
